  Office of Inspector General
         Audit Report


   PHMSA HAS ADDRESSED MOST
 WEAKNESSES WE IDENTIFIED IN ITS
  SPECIAL PERMIT AND APPROVAL
           PROCESSES
Pipeline and Hazardous Materials Safety Administration


            Report Number: MH-2014-064
              Date Issued: July 17, 2014
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: PHMSA Has Addressed Most                                            Date:    July 17, 2014
           Weaknesses We Identified In Its Special Permit
           and Approval Processes
           Pipeline and Hazardous Materials Safety
           Administration
           Report No. MH-2014-064

  From:    Mitchell Behm                                                            Reply to
                                                                                    Attn. of:   JA-30
           Assistant Inspector General for Surface
            Transportation Audits

    To:    Pipeline and Hazardous Materials Safety Administrator


           The Pipeline and Hazardous Materials Safety Administration (PHMSA) regulates
           about 1 million transports of hazardous materials (hazmat) a day under its
           Hazardous Material Regulations (HMR). 1 However, numerous businesses and
           Government agencies move many of these materials by truck, rail, and other
           transportation modes under special permits from PHMSA that provide exceptions
           to requirements in the HMR. Similarly, entities that want to perform functions that
           require prior consent under the HMR, such as classifying explosives and
           manufacturing cylinders for transport, must first receive written approval from
           PHMSA’s Associate Administrator for Hazardous Materials Safety.

           In 2009 and 2010, we reported on weaknesses in PHMSA’s processes for granting
           special permits and approvals. 2 These weaknesses raised questions about the
           effectiveness of PHMSA’s oversight of hazmat transport safety. Specifically, we
           found that PHMSA: (1) did not review incident and enforcement records to
           establish applicants’ fitness for conducting activities authorized by special permits
           and approvals; (2) had little or no evidence of its evaluations of applicants’
           1
            49 CFR Parts 171-180.
           2
            PHMSA’s Process for Granting Special Permits and Approvals for Transporting Hazardous Materials Raises Safety
           Concerns, OIG Report Number CC-2009-096, September 10, 2009; New Approaches Needed In Managing PHMSA’s
           Special Permits And Approvals Program, OIG Report Number AV-2010-045, March 4, 2010; Actions Taken and
           Needed To Improve Management and Oversight of PHMSA’s Hazardous Materials Special Permits and Approvals
           Program, OIG Report Number CC-2010-044, April 22, 2010. OIG reports are available on our Web site,
           www.oig.dot.gov.
                                                                                   2


proposed measures for safely transporting hazmat; (3) rarely coordinated
applications with affected operating administrations (OA) before issuing special
permits and approvals; (4) had not inspected explosives testing laboratories in
10 years; and (5) did not adequately plan to address necessary information
technology improvements within the Agency.

Before we completed our prior work, PHMSA had developed—but not fully
implemented—standard operating procedures (SOP) for issuing special permits
and approvals. PHMSA also developed action plans to improve its special permit
and approval processes and related data collection and analysis activities. We
conducted this audit to assess PHMSA’s progress in addressing the issues
highlighted in our previous work. Specifically, we assessed whether PHMSA
(1) implemented SOPs and addressed weaknesses highlighted in our prior reports,
and (2) has improved information technology that supports its special permit and
approval processes.

We conducted this audit from July 2013 through June 2014 in accordance with
generally accepted Government auditing standards. To conduct this audit, we
reviewed supporting documentation for samples of 71 special permits and
78 approval applications submitted to PHMSA from July 2011 through December
2012. We interviewed staff involved in the review of special permit and approval
applications at PHMSA, other OAs, and the U.S. Coast Guard. We also
interviewed PHMSA staff involved in the development of information technology.
See exhibit A for additional details on our scope and methodology and exhibit B
for a list of the organizations we visited or contacted. See exhibit C for
explanations of special permit types—new, renewal, modification, party-to, and
emergency—and approval categories—registration, classification (of explosives
and fireworks), cylinders, third-party certification agencies, general approvals, and
radiation.

RESULTS IN BRIEF

PHMSA has implemented SOPs and addressed weaknesses that we found during
our previous audit work. The SOPs describe processes for assessing the fitness of
entities applying for special permits and approvals and evaluating measures for
achieving safety levels required by the HMR. For example, the SOP for processing
approvals directs PHMSA project officers to use a multi-phase process to assess
applicant fitness and document their safety evaluations using standard forms.
Based on our samples, PHMSA processed all of the special permit applications
and most of the approval applications in accordance with the SOPs. However, files
for 13 explosives classification approval applications lacked technical evaluation
forms that document the reasons for technical officers’ safety recommendations.
In response to our identification of the missing forms, PHMSA took steps during
                                                                                   3


the audit to address this internal control weakness. The Agency is also
coordinating applications with other OAs based on the SOPs’ criteria when
applications are mode-specific, precedent setting, or meet a specific condition,
such as transporting lithium ion batteries by air. Finally, PHMSA has conducted
inspections and taken other steps to strengthen its oversight of third-party agencies
that inspect cylinder applicants, test explosives, and certify hazmat packaging on
PHMSA’s behalf.

PHMSA has begun improving the information technology that supports the special
permit and approval processes, but has delayed implementation of one system, the
Portal, because of issues with the module for processing special permit
applications. Agency documents state that the module was completed in 2011, but
staff currently use only some of its capabilities. The module is designed to process
all types of special permit applications. However, PHMSA deactivated the
module’s capability for processing new and modified special permits because
users found it difficult to accurately identify applicant companies and their
operating locations. Additionally, the Agency’s current method of identifying
companies is not sufficient when an applicant has a complex structure. PHMSA is
working to resolve this issue, but Agency representatives state that they will need
to analyze new data sources and secure additional funding. As a result, the Agency
is not benefitting from the Portal’s more efficient processes or improved analytical
capabilities, thus affecting PHMSA’s ability to use its resources most effectively.

We are making recommendations to assist the Agency in its ongoing efforts to
improve internal controls and effectively use the PHMSA Portal.

BACKGROUND

PHMSA’s Approvals and Permits Division manages the review of special permit
and approval applications, to include conducting fitness and safety evaluations.
After determining that an application includes all required data, project officers
determine whether the applicant is fit to carry out the conditions of the special
permit or approval application. When requested, PHMSA Field Operations
Division staff conduct fitness reviews by examining documentation and perform
on-site inspections. PHMSA’s Engineering and Research Division staff conduct
safety evaluations of special permit and approval applications that require
technical analyses. Private laboratories and companies also may act on PHMSA’s
behalf by testing and recommending classification of explosives, inspecting
cylinder manufacturers and cylinder repair/rebuild and test facilities, and
certifying certain types of hazmat packaging.

When special permit and approval applications meet certain conditions, such as
transporting lithium ion batteries by air, PHMSA coordinates them with the
                                                                                   4


Federal Aviation Administration (FAA), the Federal Motor Carrier Safety
Administration (FMCSA), or the Federal Railroad Administration (FRA). The
Agency also coordinates applications with the U.S. Coast Guard within the U.S.
Department of Homeland Security.

PHMSA uses information systems to process applications and determine applicant
fitness. The Hazardous Materials Information System (HMIS) serves as a
document management system for applications and maintains data that includes
special permits and approvals, a registry of hazmat shippers and carriers, incidents,
and enforcement actions. PHMSA is replacing HMIS with the Portal, which is
being designed to support both PHMSA hazmat and pipeline safety processes.
PHMSA and other OAs also use the Hazmat Intelligence Portal (HIP), which
contains hazmat safety and compliance data from PHMSA, FAA, FMCSA, FRA,
and other sources.

PHMSA ACTIONS ADDRESS WEAKNESSES IN ITS
APPLICATION PROCESSES

PHMSA has implemented SOPs that address weaknesses we found in 2009 and
2010. The SOPs describe processes for assessing the fitness of entities applying
for special permits and approvals and evaluating applicants’ measures for
achieving safety levels equivalent to HMR requirements. They also identify
conditions for PHMSA’s coordination on applications with other OAs. PHMSA
processed the special permit and approval applications in our sample in
accordance with the SOPs with few exceptions. Finally, since our last audit,
PHMSA has taken actions to enhance oversight of third-party inspection and
testing agencies.

Use of SOPs Has Improved PHMSA’s Assessments of Applicant
Fitness and Safety and the Agency’s Coordination With Other OAs

SOPs Address Issues in Evaluating Applicant Fitness

Previously, we found that PHMSA did not conduct complete fitness reviews for
most applications we examined. During this current audit, we found that PHMSA
had published SOPs documenting a process for assessing applicant fitness and
utilizing pass/fail criteria and that PHMSA staff followed the SOPs with few
exceptions.

In 2010, we reported that for the 99 special permits and 56 approvals we
examined, PHMSA did not conduct complete fitness reviews by examining
applicants’ incident and compliance records. Instead, the Agency examined only
the safety of actions described in applications. According to PHMSA officials at
                                                                                                              5


the time, incident and compliance histories had no bearing on applicants’ abilities
to safely carry hazardous materials.

PHMSA’s current SOPs address these concerns by directing PHMSA’s project
officers to perform multi-phased fitness reviews of applicants. A Phase 1 review
includes gathering information from HIP 3 about an applicant’s incident and
enforcement histories and assessing the information according to published
pass/fail criteria. Applicants that fail Phase 1 reviews are referred to PHMSA’s
Field Operations staff or OAs for more thorough Phase 2 reviews, which may
involve reviewing additional documentation from applicants. If they cannot make
a fitness determination based on a Phase 2 review, Field Operations staff may
recommend that applicants receive on-site inspections, known as Phase 3 reviews.

Based on our sample of applications, PHMSA used its special permit and approval
SOPs 4 to appropriately assess applicants’ fitness except for two approval
applications. One file lacked a fitness evaluation form, even though the applicant
passed the Phase 1 review. Another lacked both an evaluation form and a HIP
fitness report, and the applicant was not forwarded to Field Operations for a Phase
2 review. As illustrated in table 1, all sample special permits and approvals
underwent Phase 1 reviews as required. Twenty of the special permits (about
30 percent) and 2 of the approvals (about 4 percent) that we reviewed underwent
Phase 2 and Phase 3 reviews.

Table 1: Fitness Reviews by Phase
Application         Total          Phase 1                     Phase 2                    Phase 3
Type                           (History Review)           (Document Review)          (On-Site Inspection)

Special                                    a
                       71               67                          20                          10
Permit
                                           b
Approval               78               45                            2                           1
Source: OIG analysis of PHMSA data
a
  Four of 71 special permit applications were submitted by Federal agencies, which under the
HMR are not required to undergo fitness reviews.
b
  Thirty-three of 78 approval applications were for classifying explosives or fireworks, for which
PHMSA no longer requires fitness reviews.

In accordance with the SOPs, PHMSA denied 2 of the 67 special permit
applications in our sample based on determinations that the applicants were unfit.
One applicant failed the Phase 1 fitness evaluation because it had more than one

3
  While we assessed PHMSA’s compliance with its SOPs, we did not assess the quality of HIP data used in fitness
reviews or inspections conducted during advanced fitness reviews. That work was outside the scope of our audit.
4
  Special Permits Program Standard Operating Procedures, Version 1.0, October 2009; Approvals Program Standard
Operating Procedures, version 2.0, June 2011; Certification Agency Approvals, Standard Operating Procedures,
version 2.0, June 2011.
                                                                                                                     6


hazmat incident involving a cargo tank or other bulk packaging. This applicant
also did not respond after PHMSA Field Operations contacted it in order to
conduct a Phase 2 review. For the other special permit, the applicant failed a
Phase 1 fitness review and a Phase 3 FMCSA on-site inspection. PHMSA did not
deny any of the 45 approval applications based on fitness.

Finally, as required by the Moving Ahead for Progress in the 21st Century Act,
known as MAP-21, PHMSA plans among other things to publish its criteria for
evaluating the fitness of special permit and approval applicants in the HMR.
According to PHMSA officials, the Agency will do this through a rulemaking that
also incorporates policy changes, such as not performing fitness evaluations for
classification approvals. According to DOT’s May 2014 report on significant
rulemakings, PHMSA plans to publish a notice of proposed rulemaking in
September 2014.

Use of SOPs Has Improved PHMSA’s Assessments of Proposed Safety
Measures

Previously, we found that PHMSA lacked evidence that it had performed safety
reviews. During this audit, we found that PHMSA had established SOPs that
require staff to document safety reviews and include reasons for denying
applications, and that staff followed the SOPs on most applications we reviewed.

In 2010, we reported that PHMSA’s reviews of 65 percent of the special permits
and all of the approvals in our sample were either incomplete, lacked evidence of
an adequate level of safety, or simply did not exist. As a result, PHMSA granted
special permits and approvals without sufficient data or analyses to confirm that
applicants’ proposed level of safety was at least equal to what the HMR requires.

The current SOPs require PHMSA staff to use standard forms to document their
evaluations of the safety measures described in special permit and approval
applications. For example, the form for new special permit applications requires
staff to list the hazmat being shipped, the applicant’s justification for the request,
the benefit to the public of granting the special permit, an overall safety
assessment based on information in the application, and a basis for approving or
denying the application. 5

Based on our review of sample applications, PHMSA considered all special permit
and most approval applicants’ proposed safety measures in accordance with the
SOPs. We found that safety evaluation forms had been completed and that the

5
  Not all applications undergo safety evaluations. For example, safety reviews for party-to special permit applications
are based on the safety review of the original special permit.
                                                                                                                      7


forms were supported by documentary evidence. PHMSA denied 1 of the 71
special permit applications and 11 of the 78 approval applications based on safety
evaluations.

However, for 13 of the 78 approvals—all of them explosives classifications—the
files lacked technical evaluation forms that document the reasons for technical
officers’ safety recommendations. PHMSA did not have an official form for
explosives classification approvals, even though a technical officer developed one
that was used intermittently. Based on these 13 approvals, we project that files for
1,815 explosives classification approval applications, or 52 percent of a universe
of 3,490, lacked these forms. 6 While files for the 13 applications included
information demonstrating that technical officers had reviewed the safety
measures, the lack of complete evaluations contradicts the approvals SOP and
represents an internal control weakness. A lack of sufficient documentary
evidence that PHMSA had conducted these evaluations could make it difficult for
the Agency to support its decisions should a safety incident occur.

During the course of our audit, we alerted PHMSA to this weakness and the
Agency took action to address it. In March 2014, the Agency verbally directed its
technical staff to use a new explosives safety evaluation form and reiterated those
instructions in an email 1 month later. PHMSA has not included this requirement
in the approvals SOP but plans to do so in internal guidance it is developing.

Use of SOPs Has Refined PHMSA’s Coordination of Applications with
Other OAs

In our previous work, we found that PHMSA did not coordinate special permit and
approval applications with OAs that may have had relevant data on applicants.
During our current audit, we found that PHMSA’s SOPs established criteria for
coordinating applications and that PHMSA staff followed the SOPs in their
reviews of the applications that we examined.

In 2010, we reported that PHMSA did not coordinate with FAA, FMCSA, or
FRA, even though these OAs may have had critical safety information on
applicants seeking special permits. PHMSA did not coordinate with OAs on
90 percent of the new and party-to permits or any of the special permit renewals or
approvals OIG reviewed. We reported that, while we agreed with PHMSA that it
did not need to coordinate with its partner agencies on every approval, it should on
those applications that provide exceptions to regulatory requirements or

6
  We selected a statistical, stratified sample of 78 out of 32,327 approval applications, and within this sample,
25 applications represented 3,490 total applications for explosives classifications. We estimate that 1,815 (52 percent)
of the explosives approvals did not include the required safety evaluation forms. This estimate has a precision (or
margin of error) of +/- 16.7 percentage points at the 90-percent confidence level.
                                                                                                             8


prohibitions, such as authorizations to transport lithium batteries in certain
quantities.

Two SOPs—one on special permits and one on approvals 7—describe conditions
under which PHMSA should coordinate with its partner OAs on applications. The
special permit SOP calls for coordination on applications that: (1) set precedents;
(2) involve only one mode of transportation; or (3) meet specific conditions. For
approvals, the SOP directs PHMSA to coordinate mode-specific approvals and
applications involving five commodities, including radioactive materials and
chemical oxygen generators.

Within our sample of applications, PHMSA implemented these SOPs. Sixteen of
our 71 sample special permit applications met the SOP’s criteria for coordination,
and PHMSA coordinated all 16. For example, PHMSA coordinated with FMCSA
on an application from a carrier with a high hazmat out-of-service rate. 8 After
reviewing its records and conducting an on-site inspection, FMCSA concluded the
carrier was fit and sent its findings to PHMSA. In each of the 16 cases, PHMSA
accepted the OA’s recommendation on whether to grant the application.

We sent 14 special permit applications to OAs—applications that PHMSA had not
coordinated—for their opinions on whether PHMSA should have coordinated with
them. The OAs concurred with PHMSA’s decision not to coordinate the
applications. None of the 78 approvals in our sample required coordination with
PHMSA’s partner OAs.

PHMSA and the OAs have recently taken an additional step to coordinate their
reviews by signing an interagency agreement. The agreement establishes a
steering committee and includes processes, detailed coordination criteria, and
other material. For example, the agreement establishes a dispute resolution process
to address any unresolved issues between PHMSA and the OAs.

SOPs Will Serve as the Basis for Detailed Internal Guidance

PHMSA plans to use its SOPs to develop detailed internal guidance for its staff
and to share the SOPs with the public. The Agency plans to convert its current
SOPs into detailed desk guides that will contain internal guidance for its project
and technical officers. In addition, PHMSA plans to add its special permit and
approval SOPs to the HMR by publishing its entire process for assessing
applications: a completeness review, fitness and/or safety equivalency evaluations,

7
  Standard Operating Procedures for the Coordination of Approvals with Modal Administrations, January 2009. The
approvals SOP says little about coordinating such applications.
8
  A motor vehicle is declared “out-of-service” when FMCSA declares its mechanical condition or loading to be so
imminently hazardous that operating it would likely cause an accident or a breakdown.
                                                                                   9


notices in the Federal Register (special permits only), and disposition. PHMSA
will also include recent updates to its processes in the published SOPs, including
changes to the fitness policy and criteria.

PHMSA Has Taken Actions to Improve its Oversight of Third-Parties

In our earlier work, we found that PHMSA had not inspected explosives testing
laboratories. During our current audit, we found that PHMSA had conducted these
inspections and taken other steps to oversee such third-party labs and agencies.

In 2010, we reported that for 10 years, PHMSA had not conducted fitness
inspections or safety reviews at any of its 4 approved explosives testing labs.
Moreover, one lab had not submitted to PHMSA its annual activity report for the
last 5 years and the Agency could not locate the annual reports for the other 3 labs.
We reported that PHMSA’s lack of oversight of its testing labs’ operations put the
integrity of the explosives classification program at risk.

Since 2010, PHMSA has taken actions to improve its oversight of explosives
testing labs and other third-party certification agencies. Specifically, PHMSA has:

• Inspected its 4 approved explosives testing labs in 2010 and plans to re-inspect
  them when their approvals are renewed in 2015;
• Revised and reissued approvals for the 4 explosive testing labs, 9 independent
  inspection agencies, and 16 of 18 package testing labs;
• Published a separate SOP for processing certification agency approvals and
  overseeing them; 9
• Developed evaluation forms to guide its review process and established criteria
  used during reviews of certification agencies’ compliance with approval
  requirements;
• Increased the requirements for laboratories and other third-party agency
  approvals by (1) requiring personnel qualification plans; (2) clarifying testing
  and inspection procedures; and (3) updating reporting requirements; and
• Met regularly with certification agencies to improve communications so that
  the agencies understand their roles as PHMSA’s representatives and their
  approval requirements.

Finally, PHMSA is establishing a network of fireworks certification
agencies (FCA) that will allow fireworks manufacturers an alternative to
submitting classification requests to PHMSA. In turn, PHMSA’s oversight

9
    Certification Agency Standard Operating Procedures, Version 1.0, June 2011.
                                                                                 10


responsibilities will increase. Unlike other third-party agencies, FCAs will have
the authority to issue fireworks certifications directly to applicants—after PHMSA
acknowledges having received documentation from the FCA. PHMSA is currently
revising its certification agency SOP to include processes for overseeing both
domestic and foreign FCAs.

PHMSA CONTINUES TO DELAY THE IMPLEMENTATION OF ITS NEW
INFORMATION SYSTEM

During our prior audit, PHMSA had not fully planned improvements to the
information systems supporting the special permits and approval processes.
During this audit, we found that PHMSA had developed—but not yet fully
implemented—a new system for processing special permit applications.

In 2010, PHMSA initiated the development of Portal to improve its hazmat safety
data collection and analysis. The Agency estimated that it would need 5 years and
$25 million to complete the system—part of the modernization of PHMSA’s
information technology and an important step toward developing risk-based, data-
driven oversight of pipeline and hazmat safety. At that time, the Agency was
uncertain whether funding would be available and had not developed a funding
contingency plan.

PHMSA has implemented and uses a module in Portal to process applications for
some renewal and party-to special permits, on which PHMSA already has
validated applicant information in its information systems. PHMSA spent at least
$3.5 million to develop this module. The Agency also reported that it has
implemented additional Portal modules supporting hazmat enforcement and the
collection of pipeline operators’ annual reports.

During the testing of the special permit module, external and internal users found
it difficult to accurately identify companies applying for special permits. External
users, such as businesses with multiple locations where a special permit would be
needed, had difficulty identifying the locations where a special permit would be
used because the module allowed users to identify only one location. Internal users
also found it difficult to accurately correct company identifier information that
applicants had entered incorrectly when applying online. As a result of these
issues, PHMSA deactivated the module’s application processing capability for
new and modified special permits. The Agency continues to process these types of
applications, as well as renewal and party-to applications in HMIS.

The current method of acquiring unique identifiers for companies—using Dun and
Bradstreet’s Data Universal Numbering System—is insufficient for PHMSA’s
needs. Agency officials stated that unique numbers can be generated for all
                                                                                                               11


applicant entities and their locations. However, the Agency lacks a method for
associating related locations and entities, such as entities with parent-subordinate
relationships or doing business under a different name, to capture all available data
about an applicant’s fitness. PHMSA officials also informed us that, before
activating the module’s capabilities for new, modified, and emergency
applications, they want to develop a multi-modal system for accurately identifying
companies that would better connect data maintained by PHMSA, FAA, FMCSA,
FRA, U.S. Coast Guard (USCG), and other sources.

PHMSA officials stated further that the Agency has begun to resolve the company
identifier issue. The Agency is acquiring and analyzing more complete company
data—such as parent-subsidiary relationships among companies and information
on company locations—to determine whether that data could be the basis for
unique company identifiers. The Agency is also pursuing other actions to resolve
the issue, such as broadening the types of entities that must obtain a PHMSA
hazmat registration number. PHMSA officials also stated that they need time and
additional funding to resolve the issue, but have not established a plan for
selecting and implementing a multimodal company identifier or estimated its cost.

Due to these issues, PHMSA has delayed the full implementation of Portal, even
though the Agency’s fiscal year 2014 budget estimate states that the special permit
module was completed in August 2011. As a result, PHMSA is not fully
benefitting from its investment’s full efficiencies and capabilities. The special
permits module saves staff time by automatically screening applications submitted
online for completeness. That savings could be significant, given the large number
of applications that must be rejected. For example, in our sample, PHMSA project
officers using HMIS rejected about 40 percent of special permit applications for
lack of completeness. 10 Furthermore, the lack of a well working company
identifier undermines PHMSA’s ability to use the entire special permits module,
develop Portal’s approvals module, and connect all company data residing in its
databases—data that is necessary for developing better company risk profiles and
using Agency resources most effectively.

CONCLUSION

Regulating and monitoring the movement of hazardous materials is an important
part of ensuring the safety of the Nation’s transportation system. It is PHMSA’s
role to properly assess risk before it allows entities to participate in this transport
under special permits and approvals. By implementing SOPs, PHMSA has
established a stable foundation for reviewing special permit and approval

10
   We examined another 46 special permit applications that did not undergo fitness evaluations, but did not include
them in our sample because PHMSA rejected them for lack of data or timeliness or applicants withdrew them.
                                                                                 12


applications. However, the lack of a fully functioning information system
undermines PHMSA’s ability to accurately regulate entities seeking to transport
hazmat under conditions not specified in the HMR and to perform functions
important to the safe transport of hazmat.

RECOMMENDATIONS

We recommend that Pipeline and Hazardous Materials Safety Administrator:

1. Include in the planned approvals desk guide a requirement to use technical
   safety evaluation forms to document analyses for explosive classification
   applications.

2. Develop and implement a plan—including milestones                 and    funding
   requirements—for resolving the company identifier issue.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided PHMSA with a copy of our draft report on June 9, 2014, and
received its response—which is included as an appendix to this report—on
July 2, 2014. PHMSA concurred with our two recommendations, which we
consider resolved but open pending completion of the planned action. For
recommendation 1, the Agency did not include a completion date for its planned
action in its response, but subsequently informed us that it would complete the
action by January 15, 2015.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630, or Ms. Toayoa Aldridge, Program Director, at
(202) 366-2081.
                                          #
                                                                                                                     13


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our work from July 2013 through June 2014 in accordance with
generally accepted Government auditing standards for performance audits. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine whether PHMSA implemented the SOPs and addressed weaknesses
highlighted in prior OIG reports, we:

• Selected a stratified random sample of 71 out of 2,305 special permit
  applications where the strata consisted of the following 5 application types:
  (1) Modification, (2) New, (3) Renewal, (4) Party-To, and (5) Emergency. 11
  We also selected a stratified random sample of 78 out of 32,327 approval
  applications where the strata consisted of the following 6 application types:
  (1) Competent Authority, (2) Cylinder Requalifier (Visual), (3) Explosive,
  (4) Firework, (5) Manufacturer Symbol, and (6) Requalifier.

       We limited our sample to special permit and approval applications received by
       PHMSA between July 1, 2011 (i.e., to capture applications under the second
       version of the approvals SOP), and December 31, 2012 (i.e., to allow time for
       PHMSA to finish processing the applications). Moreover, 14 applications in
       our samples completed the review process in 2013.

• For each of the applications in our samples, we reviewed supporting
  documentation to determine whether PHMSA followed the SOPs regarding
  fitness and safety evaluations, as well as coordination with other OAs and the
  USCG. To acquire the documentation, we accessed files in HMIS and the
  PHMSA Portal. In addition, we interviewed PHMSA project and technical
  officers, as well as officials from FMCSA FAA, FRA, and USCG.

To test PHMSA’s decision not to coordinate special permit applications with
operating administrations, we selected a subsample of applications not sent to
FAA, FRA, and USCG. We did not develop one for FMCSA because it has a very
close working relationship with PHMSA. For the three operating administrations,
we selected the first two applications of each type (i.e., modified, new, party-to,
and renewed) and emergency processing. That resulted in our sending
9 applications approvals to FAA, 10 to FRA, and 10 to USCG. We asked each

11
     Emergency special permits refer to special permit applications submitted with a request for emergency processing.


Exhibit A. Scope and Methodology
                                                                                14


agency whether they concurred with PHMSA’s decision not to coordinate the
subsample of applications and other questions.

To examine PHMSA’s oversight of third-party inspection and testing agencies, we
conducted interviews with PHMSA staff and reviewed available documentation.
Using third-party labs and inspection agencies associated with our approvals
sample, we queried PHMSA’s database to verify that approvals for these entities
were reissued with additional requirements and verified that annual/biannual
reports were submitted and reviewed by the Agency. This included 2 of 18
third-party packaging labs, 4 of 6 explosive labs, and 6 of 9 independent
inspection agencies.

Regarding our projection that 1,815 explosives classification approval applications
lacked technical safety evaluation forms. Within our sample of 78 approval
applications, 25 represented 3,490 applications for explosives classifications.
Based on our finding, we estimate that 1,815 (52 percent) of the explosives
approvals did not include the required safety evaluation forms. Our estimate has a
precision (or margin of error) of +/- 16.7 percentage points at the 90-percent
confidence level.

To test the reliability for completeness of the data contained in HMIS and the
Portal, we searched special permit and approval numbers, and the special permit
and approval application numbers immediately before and after the numbers in our
sample. Despite some missing special permit and approval numbers, we
considered HMIS and the Portal sufficiently reliable for testing whether PHMSA
staff followed the SOPs to process applications.

To determine whether PHMSA has improved information technology that
supports its special permit and approval processes, we interviewed officials from
the Office of the PHMSA CIO and the Approvals and Permits Division, as well as
FMCSA and FAA. We also reviewed PHMSA budgetary and program documents.




Exhibit A. Scope and Methodology
                                                                            15



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
PHMSA
Approvals and Permits Division
Engineering and Research Division
Field Operations Division
Office of the Chief Information Officer

Other Operating Administrations
Federal Aviation Administration, Office of Hazardous Materials Safety
Federal Motor Carrier Safety Administration, Hazardous Materials Division
Federal Railroad Administration, Hazardous Materials Division

U.S. Department of Homeland Security
U.S. Coast Guard, Hazardous Materials Division




Exhibit B. Acti vities Visited or Contacted
                                                                                      16



EXHIBIT C. TYPES OF SPECIAL PERMITS AND CATEGORIES OF
APPROVAL APPLICATIONS
Special                                    Definition
Permit Type
 New             Application for alternatives, or variances, to the requirements in
                 the HMR. Federal hazmat transportation law (49 U.S.C. § 5117)
                 authorizes PHMSA to issue such variances.
 Renewal         Application to renew an existing special permit.
 Modification    Application to modify an existing special permit.
 Party-To        Application to become a party to, or “piggyback,” an existing
                 special permit.

Approval         Examples of             Definition
Category         Sub-Categories
(No. of Sub-
Categories)
Registration     M numbers               Stamped on hazmat packaging to
(2)              (used in place of       identify the manufacturer.
                 manufacturer’s
                 name and address)
                 Visual identification   Used to certify visually inspected low
                 number                  pressure cylinders.
Classification   Explosives              - Assigns a hazard class for shipping;
(4)              (assigned an            - Requires third-party testing by an
                 EX number)                explosives laboratory.
                 Fireworks               Assigns a hazard class for shipping.
                 (assigned an
                 EX number)
Cylinders        Domestic cylinder       Repairs/rebuilds DOT specification
(6)              repair/rebuild          cylinders.
                 companies
                 Foreign cylinder        Inspects and certifies DOT specification
                 requalifiers            cylinders.
Third-Party      Independent             Perform and verify tests and inspections
Certification    inspection agencies     of cylinders.
Agencies         Explosives              Tests explosives and issues
(6)              examination             classification recommendations.
                 agencies
General          General Approval        Competent authority approvals for a
Approvals        (Competent              variety of activities, including
(4)              Authority Approval)     manufacturing certain types of hazmat
                                         packaging.
                 Lithium batteries       Alternate testing and transporting of
                 (Competent              lithium batteries.
                 Authority Approval)
Radiation        Radioactive material    Certifies package design or assigns a
(0)              package designs         hazard class for shipment.
                 and classifications




Exhibit C. Types of Speci al Permits and Categories of Ap proval
Applications
                                                              17




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Toayoa Aldridge                         Program Director

Jerrold Savage                          Project Manager

Linda Major                             Senior Auditor

Farrin Tamaddon                         Analyst

Susan Neill                             Writer/Editor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician




Exhibit D. Major Contributors to This Report
                                                                                                18



  APPENDIX. AGENCY COMMENTS

                                                                    Memorandum
            U.S. Department of
            Transportation
            Office of the Secretary
            of Transportation



Subject:     INFORMATION: Management Comments –                             Date:

             Office of Inspector General (OIG) Draft Report on
             PHMSA Special Permits
  From:      Brodi Fontenot
             Assistant Secretary for Administration
      To:    Mitchell Behm
             Assistant Inspector General for Surface Transportation Audits

  The mission of the Pipeline and Hazardous Materials Safety Administration (PHMSA),
  Office of Hazardous Materials Safety (OHMS) is to protect people and the environment
  from the risks inherent in the transportation of hazardous materials. In the United States
  there are approximately one million shipments of regulated hazardous materials each day.
  Most of these shipments are made using the standards and safety regulations prescribed
  by PHMSA’s Hazardous Materials Regulations (HMR). Although the HMR provides a
  comprehensive system of transportation safety that accounts for transport scenarios and
  alternatives, certain circumstances, new technologies, or conditions may not be
  authorized. In these cases shippers or transporters may seek an alternative method of
  transport or require prior approval by PHMSA, which manages, processes, and ensures
  safety compliance through formal processes. The Approvals and Permits Division within
  OHMS oversees the issuance of Special Permits and Approvals, including the
  coordination of technical and operational controls to ensure safety and modal
  concurrence. Over the last few years, OHMS has worked hard to improve its processes
  and ensure consistent implementation by:

       •     Performing over 20,000 Approvals and Special Permit actions per year;
       •     Drafting and implementing Standard Operating Procedures for all Approvals and
             Special Permit actions;
       •     Instituting an applicant fitness program to ensure that all parties are fit to conduct
             the activity authorized;
       •     Improving oversight of all third party entities, including Explosive Laboratories,
             Packaging Laboratories, Independent Inspections Agencies and Designated
             Approval Agencies;



  Appendix. Agency Comments
                                                                                     19


   •   Creating and implementing a new type of third party entity, Firework
       Certification Agencies for review of consumer firework applications;
   •   Drafting an Operational Workflow Document (OWD) to clarify roles and
       responsibilities of PHMSA, the Federal Aviation Administration, the Federal
       Motor Carrier Safety Administration, the Federal Railroad Administration and the
       United States Coast Guard on processing and reviewing Approval and Special
       Permit actions. Each of these entities approved and signed the OWD;
   •   Reviewing all existing (approximately 1,350 Special Permits) to ensure they had
       appropriate safety evaluations and met an equivalent level of safety to current
       regulations; and
   •   Continuing efforts to convert long standing Special Permits into regulations.

The OIG draft report included recommendations to (1) include in the planned approvals
desk guide a requirement to use technical safety evaluation forms to document analyses
for explosive classification applications, and (2) develop and implement a plan –
including milestones and funding requirements – for resolving the company identifier
issue.

Based upon our review of the recommendations in the draft report, PHMSA agrees to
implement both OIG recommendations. Recommendation (1) has already been
implemented into PHMSA processes and will be included in the future approvals desk
guide. Recommendation (2) is a very complex issue that will take considerable time to
resolve; however, PHMSA anticipates completing a draft plan by October 1, 2014.

PHMSA appreciates the opportunity to offer comments on the OIG draft report. Minor
technical comments on the report will also be provided to OIG from the program staff.
Please contact Martin Gertel on (202) 366-5145 with any questions or if OIG would like
additional detail.




Appendix. Agency Comments
